Audit of the Process for Providing
 and Accounting for Information
    Provided to Researchers


   OIG Audit Report No. 10-14



         August 6, 2010
Table of Contents


Executive Summary ........................................................................................ 3

Background ..................................................................................................... 4

Objectives, Scope, Methodology .................................................................... 6

Audit Results................................................................................................... 7

Appendix A – NA Form 14001 “Reference Service Slip............................. 16

Appendix B – NA Form 14027 “Request for Military Records” ................. 17

Appendix C – NWC’s Researcher Requests Databases ............................... 18

Appendix D – Acronyms and Abbreviations ............................................... 19

Appendix E - Management’s Response to the Report.................................. 20

Appendix F - Report Distribution List.......................................................... 21
                                                              OIG Audit Report No. 10-14


Executive Summary

The National Archives and Records Administration (NARA) Office of Inspector General
(OIG) performed an audit of the process for providing and accounting for information
provided to researchers. The objective of this audit was to determine whether controls
were in place for ensuring requested records were properly accounted for when requested
and returned to storage locations. Specifically, this audit focused on NARA’s process for
making records requested available to researchers, accounting for the records once they
leave the record storage areas, and the process for refiling the records once the researcher
finishes using them.

NARA provides information about records and makes them available to the public for
research unless they have access restrictions. The Office of Records Services –
Washington, DC (NW) has custodial responsibility for most of the historically valuable
archival Federal records in the Washington, DC area. These records include military and
civilian records from past and current executive, judicial, and legislative branch agencies
and departments.

During the course of the audit, management officials and staff were cooperative. The
staff provided documentation when needed. They also addressed questions and issues
identified during audit. At the exit conference, management was receptive to the findings
identified.

Our audit revealed that opportunities exist to strengthen the effectiveness and controls
over the process of providing and accounting for information provided to researchers.
Specifically, we found the following:

   •   NW’s Access Programs (NWC) did not have a formal ongoing monitoring
       program for the records retrieval and refile process to identify and address
       potential problems and ensure compliance with program requirements. As a
       result (a) records were not refiled, refiled incorrectly, or refiled in an untimely
       manner, (b) pull slips were incomplete, and (c) pull logs were not maintained
       consistently.
   •   A centralized, integrated database for storing researcher requests for records was
       not utilized.
   •   Access to record storage areas at Archives I and II was not restricted to authorized
       personnel whose job responsibilities require access.

As a result of these conditions, NARA cannot adequately ensure records are properly
accounted for nor appropriately safeguard the records entrusted to them.

This report contains four recommendations for addressing our findings. The
recommendations in this report, upon adoption, will strengthen internal control
weaknesses defined in the report.
                                         Page 3
                      National Archives and Records Administration
                                                             OIG Audit Report No. 10-14


Background

NARA provides information about records and makes them available to the public for
research unless they have access restrictions. The agency holds billions of records in
multiple formats. In addition to traditional paper (textual) materials, NARA’s holdings
also include special media materials such as microfilm, still pictures, motion pictures,
sound and video recordings, cartographic and architectural records, and electronic
records.

The Office of Records Services – Washington, DC (NW) has custodial responsibility for
most of the historically valuable archival records in the Washington, DC area. Various
divisions of Access Programs (NWC) within NW are responsible for introducing
researchers to the reference process, providing reference assistance, delivering records,
and monitoring the use of records in the research rooms. A Reference Service Slip (NA
Form 14001 – See Appendix A) or Request for Military Records (NA Form 14027 – See
Appendix B), is prepared whenever records are removed from their proper place in the
record storage areas for use in the research rooms.

NARA directive, Archives 1400, Chapter 7, Reference Service, documents the limitations
and procedures for reference services on accessioned records for all persons requesting
such services. Reference services include providing information about the records,
making the records available for use in research rooms, furnishing reproductions of
records, lending records to other Government agencies, and providing information from
specially identified records upon request.

NARA directive, Archives 1400, Chapter 8, Security Procedures, documents safety and
security procedures for records in the custody of NARA. The procedures provide
protection against theft, unauthorized alteration, and damage or disturbance caused by
inexpert or careless handling. Only NARA employees and officials whose job
responsibilities require access to records storage areas are permitted access.

NARA directive 1572, Security for NARA Holdings, specifies security for NARA
holdings. At a minimum, holdings not in use must be stored in stack or storage areas
with accessibility limited to authorized personnel. Whenever holdings are removed from
secure storage locations for any reason, staff must document the removal by completing
NARA approved appropriate record of the removal that identifies the removed holdings,
the staff member responsible for the removal, and the reason for and date of the removal.

On a quarterly basis NW reports on agency-wide milestone objectives and target metrics
in their performance reports. NW provides performance data for the target metric
reviewing the percent of items requested in NARA’s research rooms that are furnished
within one hour of request or scheduled pull time. In FY 2009, 404,548 items were
furnished in the NWC research rooms. During FY 2009, ninety-one percent, or 367,231,
of those items were furnished within one hour.
                                        Page 4
                     National Archives and Records Administration
                                                               OIG Audit Report No. 10-14


Records Retrieval and Refile Process

Records are made available to researchers in the research rooms operated by NWC at
Archives I and Archives II. The records retrieval and refile process (hereafter referred to
as “pull and refile process”) is initiated when a researcher submits a reference service slip
(hereafter referred to as “pull slip”). The pull slip is a multi-colored (white, pink, green,
and yellow) carbon copy document used to track records removed from the stack areas at
NARA. It identifies the researcher (name and researcher identification number) and the
location (stack area, row, compartment, and shelf) of the records in the stack areas.

There are several established times throughout the day when records are pulled for
researchers. NWC employees locate and remove the records based on the stack area,
row, compartment, and shelf indicated on the pull slip. The number of records pulled and
the employee that pulled the records are indicated on the pull slip. The yellow carbon
copy of the pull slip is left on the shelf in place of the records removed. The green
carbon copy stays with the records at all times and the records are delivered to the
research room’s Holding Area. The pink carbon copy is placed in the “hold” box in the
research room. When a researcher obtains the records, they sign and complete the
“Record of Chargeouts in Search Room” section on the back of the pink carbon copy
(this section is also completed when the records are returned).

After a researcher is finished viewing the records, the records are returned to the stack
areas they were removed from previously. The yellow carbon copy is removed and the
records are returned to the shelf.




                                         Page 5
                      National Archives and Records Administration
                                                            OIG Audit Report No. 10-14


Objectives, Scope, Methodology

The objective of this audit was to determine whether controls were in place for ensuring
requested records were properly accounted for when requested and returned to storage
locations. The audit was conducted at Archives I in Washington, DC and Archives II in
College Park, Maryland, with representatives from NW’s Access Programs (NWC),
Customer Services (NWCC), Special Media Archives Services (NWCS), and Textual
Archives Services (NWCT) divisions. We also contacted the Security Management
Branch (NASS) of the Space and Security Management Division (NAS).

We examined applicable laws, regulations, and NARA guidance including (a) Archives
1400, Chapter 7, Reference Service; (b) Archives 1400, Chapter 8, Security Procedures;
(c) NARA 1572, Security for NARA Holdings; (d) NARA 279, Exit Clearance
Procedures for Separating or Reassigning NARA Employees, Contractor Employees,
Volunteers, Interns, and Foundation Employees; and (e) NARA 271, Key Control at
NARA Facilities.

To accomplish our objective, we reviewed NARA’s process for making records requested
available for researchers, accounting for the records once they leave the record storage
areas, and the process for refiling the records once the researcher was finished using
them. In addition, we interviewed staff in charge of providing textual and media records
to researchers in the research rooms. For each of the areas, we judgmentally selected a
sample of pull slips to perform detailed audit testing to verify whether (1) records were
appropriately accounted for when removed from the record storage areas and (2) records
were returned to the record storage areas. We also obtained information from NASS to
verify whether (1) background investigations were completed for staff involved in the
process for providing records to researchers and (2) access to stack areas was granted to
individuals whose job responsibilities require access to records storage areas.

A review of whether requested records were safeguarded when used by researchers in the
research rooms was not included in the scope of this audit. However, the OIG’s Office of
Investigations performed a proactive holding security assessment in January of 2010.
The results of the assessment were detailed in Proactive Holdings Security Assessment
(Management Letter OI 10-02).

Our audit work was performed at Archives I in Washington, DC and Archives II in
College Park, Maryland between August 2009 and February 2010. We conducted this
performance audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based
on our audit objectives. We believe the evidence obtained provides a reasonable basis for
our findings and conclusions based on audit objectives.



                                        Page 6
                     National Archives and Records Administration
                                                                 OIG Audit Report No. 10-14


Audit Results

1. Lack of controls over accounting for records during pull
   and refile process.
NARA lacks an adequate internal control structure to ensure records are accounted for
when they are requested and returned to record storage areas. The OIG reviewed pull and
refile operations for five areas within NWC ((1)Archives II Research Support Branch
(NWCC2), (2) Archives I Forms Reference Section and Archives I Reference Section
(NWCT1F/NWCT1R), (3) NWCS – Motion Pictures, (4) NWCS - Cartographic, and (5)
NWCS - Still Pictures) and identified weaknesses in each area. These weaknesses
include (a) records not refiled or refiled to the incorrect locations; (b) records refiled in an
untimely manner; (c) pull slips not completed in their entirety; (d) pull slips not
maintained in a centralized location; and (e) pull logs not maintained. The weaknesses
exist because NWC did not implement ongoing monitoring efforts to ensure an effective
internal control structure. NARA directive, Archives 1400, Chapter 7, Reference Service
and NW internal procedures require records be refiled to the stack locations from which
they were removed and refiled in a timely manner. Also, federal guidance requires
agencies to implement sufficient monitoring, oversight, and control activities to ensure
weaknesses are mitigated. As a result of the above issues, NARA cannot ensure records
requested in the research rooms at Archives I and Archives II are properly accounted for
when removed from shelves. Additionally, without a consistent process for monitoring
the pull and refile process, NARA’s ability to identify and address potential compliance
issues with program requirements is limited.

Government Accountability Office (GAO) Standards for Internal Control in the Federal
Government state internal control systems should be monitored to assess their
effectiveness and to modify procedures as appropriate based on results of the monitoring
activities. Monitoring is accomplished through routine, ongoing activities, separate
evaluations, or both, and should be built into the normal, recurring operating activities of
an entity. Everyone within an organization has some responsibility for monitoring.

As a part of fieldwork, we reviewed a sample of 136 pull slips for records charged out to
researchers from December 2009 through February 2010. This review revealed several
instances where controls were inadequate.




                                         Page 7
                      National Archives and Records Administration
                                                                       OIG Audit Report No. 10-14


The following chart is a summary of the weaknesses identified by area:

                                     Records         Records          Records           Pull slips       Pull logs
                                       were          were not         were not            were           were not
                                    refiled on        refiled         filed in a       incomplete       maintained
                                    the wrong                           timely
                                      shelves                          manner
NWCC2                                    X
NWCS – Cartographic                      X                                                  X
NWCS – Motion Pictures 1                                 X                 X                X               X
NWCS – Still Pictures                                                                       X
NWCT1F/NWCT1R                                            X                                  X



a) Records were not refiled or refiled on the wrong shelves – One of the tests we
   performed was to review pull slips (48 in total) left on the shelves for records
   provided to researchers.

    Fifteen of the 48 pull slips did not have corresponding pull slips in the research
    rooms’ hold boxes (NWCT1F/NWCT1R, NWCC2 and NWCS – Cartographic,
    Motion Pictures) which would indicate the records were in use by researchers or on
    hold. After inquiry with employees and searching shelves, five of the pull slips’
    records were refiled incorrectly and found on other shelves by NWCC2 and NWCS –
    Cartographic employees. Two of the five were misfiled by NWCS - Cartographic
    because (1) researchers were allowed to create pull slips for records that were not
    contiguous and from different compartments and (2) the employees that refiled the
    records did not review the pull slips in detail and recognize the different locations for
    the records.

    Ten of the 48 pull slips on the shelves (NWCT1F/NWCT1R) were extremely
    outdated (from 2003 through 2009), which is an indication the records are not
    accounted for and may have been misfiled or not returned by the researcher.
    Although, there were only ten sample pull slips with such extreme dates, the auditor
    noted a numerous amount of dated pull slips on the shelves in NWCS – Motion
    Pictures record storage areas. One of the pull slips left on the shelf was from 2007,
    and NWCT1F/NWCT1R personnel located the records 17 days after the auditor
    identified the exception. The other nine pull slips’ records were not located by
    NWCS – Motion Pictures. The Supervisory Archivist of Motion Pictures stated it
    was not a problem if records were not returned by researchers since they are copies of
    the originals on file.

b) Records were not refiled in a timely manner - NWCS – Motion Pictures did not refile
   records after they were returned or not used by researchers in a timely manner. In

1
 NWCS – Motion Pictures does not provide original records for public researcher use. Any film, audio, or
video items served in the Motion Pictures research room are designated as "reference copies" according to
established NARA standards.
                                            Page 8
                         National Archives and Records Administration
                                                            OIG Audit Report No. 10-14


   February 2010, we observed unrefiled records returned from researchers in December
   2009, and records on hold from January 2010 sitting in the holding room (see Figures
   1 and 2). According to Archives 1400, Chapter 7, Reference Service, records
   returned by researchers are required to be immediately returned to the holding area
   (Archives 1400 focuses on records, while this issue pertains to the reference copies
   NWC – Motion Pictures provides to researchers). Management indicated when
   records are not used for three workdays or if the researcher finished using them, they
   are returned to the record storage areas.

Figure 1: NWCS - Motion Pictures Hold Room – Reference Copies Waiting to be Refiled




Figure 2: NWCS - Motion Pictures Hold Room – Reference Copies Waiting to be Refiled




                                       Page 9
                    National Archives and Records Administration
                                                             OIG Audit Report No. 10-14


c) Pull slips were incomplete – We reviewed 54 pull slips from NWCS. None of the
   pull slips from the NWCS - Cartographic and Still Pictures contain detailed
   information regarding the location of the records including the row, compartment,
   and shelf. NW memorandum 2004-12, Controlling Archival Records Removed from
   Stack Areas at Archives I and Archives II, indicates pull slips must include the date,
   name of requestor, agency or address, record group number, stack
   area/row/compartment/shelf, and record identification. While employees of NWC are
   familiar with the location of records, it does not provide a complete recording of the
   location of the records pulled or a trail for audit or investigative purposes.
   NWCT1F/NWCT1R also allows researchers to list their addresses on pull slips
   instead of the researcher’s identification number.

   We also noted researchers requesting records from the NWCS - Motion Pictures were
   not required to sign pull slips when they received the records or complete the Record
   of Chargeouts on the back of the pull slips. Researchers should acknowledge receipt
   of records by signing NA Form 14001.

d) NW divisions did not maintain pull slips in a centralized location –When Archives
   Specialists, Aids, Technicians, and Archivists from various NW divisions need to pull
   records for operational purposes (preservation, processing, etc.) from the record
   storage areas, they complete pull slips for the removal of the records. As a part of our
   audit, we reviewed several of these pull slips. Our review found one centralized
   location was not maintained for the pull slips. Employees individually maintained
   copies of the pull slips at their desks for the records they removed. However,
   Archives 1400, Chapter 7, Reference Service, indicates reference units maintain a
   separate chronological file of the white copies of completed pull slips for records
   charged out to other NARA units. Reference units are also required to periodically
   review this file to determine when records are returned and to investigate the
   circumstances concerning overdue records.

e) Pull logs were not maintained - NWCS – Motion Pictures did not maintain complete
   daily pull logs of records pulled for researchers. Without these logs, the statistical
   data for the quarterly NW performance report is incomplete.

As a result of the above issues, NARA cannot ensure records requested in the Archives I
and Archives II research rooms are properly accounted for when removed from shelves.
Internal controls are a major part of efficiently and effectively managing a program and
developing a process for monitoring the pull and refile process is critical. A formal
ongoing monitoring program of internal control activities will help identify any existing
control weaknesses.

Recommendation 1

The Assistant Archivist for Records Services – Washington, DC (NW) should establish
formal written policies and procedures to improve NW’s monitoring of the pull and refile
process.

                                        Page 10
                     National Archives and Records Administration
                                                              OIG Audit Report No. 10-14


Management Response

Management concurred with recommendation.



2. NWC lacks a centralized database to process researcher
   requests.
NWC did not utilize a centralized, integrated database for storing researcher requests for
records. Instead each division developed separate databases for the requests. This
condition is a result of NWC operating a decentralized organizational structure.
Government Accountability Office (GAO) Standards for Internal Control in the Federal
Government asserts management should design and implement internal controls to
protect its assets. The lack of a uniform process (1) impacts NWC’s ability to properly
safeguard the records entrusted to them; (2) increases inconsistencies; and (3) prevents
the opportunity for divisions of NWC to work together for improved results.

During our review of researcher requests for records in the research rooms, we found
NWC does not utilize a centralized, integrated database for storing researcher requests for
records. Each area (NWCC2, NWCS, and NWCT1F/NWCT1R) maintains its own
database and records different information for the requests (See Appendix C for a
summary of the elements recorded in each database). NWCC2’s database:

   •   Recorded the researcher’s ID number, pull date, pull time, record group, stack
       area, and control number assigned;
   •   Recorded each stage of the process including when (1) researcher’s requests are
       received, (2) the pullers picked up the requests, (3) record pulls are completed, (4)
       records are released by the researcher, and (5) records are refiled; and
   •   Linked each researcher request to the researcher’s information (including picture)
       maintained in NARA’s researcher registration application.

However, the databases maintained by NWCS and NWCT1F/NWCT1R were not as
refined and comprehensive as they maintained minimum information about the
researcher’s requests. NWCS database recorded the date, pull time, puller, and number
of records pulled. NWCT1F/NWCT1R maintained two separate databases, textual and
military. The textual records database included the control number, researcher number,
record group, and date of pull slip. The military records database recorded the
researcher’s last name and number of records furnished.

The separate databases are maintained because of the silo based program structure NWC
has in place for the divisions involved in processing researcher requests for records. The
divisions are treated separately and controls are not reviewed concurrently. For instance,
a Lean study of the pull and refile process was performed in FY 2009 for NWCC2,
whereas a detailed review has not been performed for the other divisions in NWC. The

                                        Page 11
                     National Archives and Records Administration
                                                                OIG Audit Report No. 10-14


study resulted in a number of changes and recommendations for NWCC2. Also, a new
study is planned for FY 2010 for this same branch, NWCC2, which will look at all
aspects of textual reference to determine how well they are providing the researcher
service and if they need to make changes in order to better serve the researchers. A
review of the internal controls for the research process for all divisions is a prudent best
management practice.

NARA’s ability to effectively identify and/or investigate potential theft of archival
documents may be hindered as critical information is not housed in a central location. In
the event a researcher is suspected of theft, a centralized database could provide essential
information such as (1) photo identification of the suspected researcher; (2) dates and
times of the researcher’s visits; (3) all NWC locations visited; and (4) all records
requested. Additionally, if an individual has stolen from other institutions, a centralized
database may help determine if that individual has accessed records at one or more NWC
facilities.

Recommendation 2

The Assistant Archivist for Records Services – Washington, DC (NW) should implement
a centralized database for all of the NW divisions involved in the processing of
researchers requests for records and determine the necessary information that should be
included in the database. At a minimum the database should include the elements
recorded in the NWCC database.

Management Response

Management concurred with recommendation.



3. Lack of controls over access to record storage areas.
Access to record storage areas at Archives I and Archives II was not restricted to
authorized personnel whose job responsibilities require access. These deficiencies
occurred because the controls outlined in NARA regulations, Archives 1400, Chapter 8,
Security Procedures and NARA 271, Key Control at NARA Facilities were not enforced.
Specifically, according to NARA directive Archives 1400, Chapter 8, Security
Procedures only NARA employees and officials whose job responsibilities require access
to records storage areas be permitted to access stack areas. NARA 271, Key Control at
NARA Facilities, requires the primary key custodian to conduct biennial inventories of all
keys. Without proper control, NARA risks unauthorized access to record storage areas
which could lead to theft, alteration, and damage or disturbance to records.

Physical and Holdings Security has consistently been defined as one of NARA’s Top Ten
Management Challenges in our semiannual reports to Congress. During this audit we
reviewed the listings of individuals with access to the record storage areas at Archives I
                                         Page 12
                      National Archives and Records Administration
                                                             OIG Audit Report No. 10-14


and Archives II. Our review found NASS did not perform its responsibilities associated
with managing and administering access to record storage areas as access was not
restricted to authorized personnel whose job responsibilities required it.

Specifically, we found:

a) At Archives I, a card key mechanism was not used to restrict access or capture and
   log ingress or egress into stack areas. We also found key control was inadequate at
   Archives I to limit access to the stacks. These deficiencies were previously identified
   by the OIG in Security over Holdings in Stack Areas (Management Letter 06-03). In
   addition:

   •   Updated key control logs to show when keys were returned, were not maintained.
   •   Periodic reviews of access to the record storage areas were not performed as
       required. NASS completed the last review in May 2006.
   •   NARA Form 6029, Key Authorization Control Record, was not on file for twenty-
       five individuals. Also, when key cards were on file they were not always
       completed when employment or contractor services ended at NARA.
   •   Five employees have multiple keys to the record storage areas.

   Management indicated during the audit, $3.2 million was allocated in the FY2010
   Repair and Restoration budget for a key card mechanism. An engineering firm was
   hired perform a design for the project. The design was completed and issued for
   contractor pricing. Construction work is expected to start in late 2010 and end in late
   2011.

b) Several employees at Archives I and Archives II had access to the record storage
   areas even though their job responsibilities did not appear to require access.

   •   We identified 36 employees at Archives I, including: 22 Information Security
       Oversight Office (ISOO) employees, six Facilities Management Branch (NAFM)
       employees, five Congressional Affairs (NCON) employees, one Information
       Technology Services Branch (NHT) employee, one Policy and Planning Staff
       (NPOL) employee, and one IT Operations Branch (NHTW) employee. The
       Archives I Security Chief indicated some individuals have access to the record
       storage areas because it provides them easier access to their offices.
   •   At Archives II we identified 19 employees, including: 6 Office of Record
       Services (NW), 3 Office of Information Services (NH), 2 Public Affairs and
       Communications Staff (NPAC), 2 Chief of Staff (NCS), 2 Office of Inspector
       General (OIG) employees, 1 Systems Development Division (NHV), 1 Facilities
       and Personal Property Management Division (NAF), 1 Policy and Planning Staff
       (NPOL), and 1 Office of Regional Records Services (NR).

c) There were no controls in place to ensure employee’s, contractor’s, volunteer’s,
   intern’s, and Foundation employee’s access to NARA facilities was removed when
   the individual either no longer needed access, no longer worked or performed
                                         Page 13
                      National Archives and Records Administration
                                                             OIG Audit Report No. 10-14


   contractor services at NARA, or had not used their proximity or Personal Identity
   Verification (PIV) cards for a period of time. At Archives I, 50 individuals who no
   longer work or perform contractor services still had keys to the record storage areas.
   Forty-one of the fifty were prior employees of NARA, six were prior contractors, and
   three were former Foundation employees.

   At Archives II, PIV cards were not returned or deactivated for 33 individuals who no
   longer work or conduct business at NARA including fourteen prior employees,
   fourteen former security employees, and five prior contractors. There were also eight
   employees who had not used their proximity cards in a long period of time (from
   three months to over two years). During the audit, NASS took immediate action and
   deactivated these eight cards.

   According to NARA 279, Exit Clearance Procedures for Separating or Reassigned
   NARA Employees, Contractor Employees, Volunteers, Interns, and Foundation
   Employees, indicates NARA must ensure all individuals ending their work or
   volunteer relationship with NARA, or relocating to a different office or facility within
   NARA, account for any outstanding accountable items (identification badges, PIV
   cards, keys, and proximity cards) for which the individual is responsible. Although
   this policy exists, in January management at AI indicated there is no formal process
   for contractors, volunteers, and non-paid students when their work or volunteer
   relationship with NARA ends.

d) LB&B employees at Archives I and Archives II have unnecessary access to the
   record storage areas, including an administrative assistant, warehouseman, landscape
   specialist, and plumbers. While NARA directive, Archives 1400, Chapter 8, Security
   Procedures indicates facilities staff may have routine access to non-security access
   areas, it does not specify which positions should be granted the access.

e) NASS does not provide employee access reports to organizations that would allow
   them to monitor and determine if access is still appropriate. Periodic monitoring
   would ensure access is granted only to individuals authorized and deviations are
   analyzed and corrected.

The conditions noted were attributable to inadequate management oversight and reviews.
When access to record storage areas is not adequately managed the risk of theft increases.
Also, as a result of the above issues, NARA cannot meet its mission of safeguarding and
preserving the records of the Government.

Recommendation 3

The Assistant Archivist of Administration should immediately perform an inventory of
access (key and PIV cards) to Archives I and Archives II record storage areas.




                                        Page 14
                     National Archives and Records Administration
                                                             OIG Audit Report No. 10-14


Management Response

Management concurred with recommendation.

Recommendation 4

The Assistant Archivist of Administration should:

   a) Update policies to clearly reflect which positions need access to record storage
      areas.

   b) Establish and implement procedures for monitoring access to record storage areas.

   c) Establish procedures for providing organizations with the information necessary
      to properly monitor and review access to the record storage areas, including
      electronic copies of a quarterly report to the head of each custodial unit which will
      enable them to monitor and review the access to the record storage areas. The
      report should include (1) individuals with access in their custodial unit, (2)
      associated key/proximity card number, and (3) the expiration date of the access
      for the proximity card (Archives II only).

Management Response

Management concurred with recommendation.




                                        Page 15
                     National Archives and Records Administration
                                                                                OIG Audit Report No. 10-14


Appendix A – NA Form 14001 “Reference Service Slip”

                         Reference Service Slip                                    Date               NO.

Name of Requestor                                                                  Agency or Address




                                Units of Service                                       Source of Request (Check)
Information      Records                                                                  NA Administration Use
Service          Furnished    Textual, Still   Motion        Sound                        Agency of Origin
(Number of       (Number      Pictures, ETC.   Pictures      Recordings                   Other Government
Replies)         of items)    (Number of       (Number of    (Number of feet)
                              pages)           feet)                                      Nongovernment
                                                                                   Request Handled BY

RG NO.    Stack Area          Row              Compartment                         Shelf              Outcard NO.




Received By                                                  Date                  Returned To        Date




                                                Page 16
                             National Archives and Records Administration
                                                 OIG Audit Report No. 10-14


Appendix B – NA Form 14027 “Request for Military
Records”




                               Page 17
            National Archives and Records Administration
                                                             OIG Audit Report No. 10-14


Appendix C – NWC’s Researcher Requests Databases

The following chart lists the elements from researcher requests recorded in the NWCC2,
NWCS, and NWCT1F/NWCT1R databases.

                                              Database Elements
NWCC2                  Recorded the researcher’s ID number, pull date, pull time, record
                       group, stack area, and control number assigned;

                       Recorded each stage of the process including when (1)
                       researcher’s requests are received, (2) requests are assigned to
                       staff for pulling, (3) record pulls are completed, (4) records are
                       released by the researcher, and (5) records are refiled; and

              Linked each researcher request to the researcher’s information
              (including picture) maintained in NARA’s researcher registration
              application.
NWCS          Recorded the date, pull time, puller, and number of records
              pulled
NWCT1F/NWCT1R Textual records database recorded the control number assigned,
              researcher number, record group, and date of pull slip.

                       Military records database recorded the researcher’s last name and
                       number of records furnished.




                                       Page 18
                    National Archives and Records Administration
                                                    OIG Audit Report No. 10-14


Appendix D – Acronyms and Abbreviations

GAO      Government Accountability Office
ISOO     Information Security Oversight Office
NAF      Facilities and Personal Property Management Division
NAFM     Facilities Management Branch
NARA     National Archives and Records Administration
NAS      Space and Security Management Division
NASS     Security Management Branch
NCON     Congressional Affairs
NCS      Chief of Staff
NH       Office of Information Services
NHT      Information Technology Services Branch
NHTW     IT Operations Branch
NHV      Systems Development Division
NPAC     Public Affairs and Communications Staff
NPOL     Policy and Planning Staff
NR       Office of Regional Records Services
NW       Offices of Records Services – Washington, DC
NWC      Access Programs
NWCC     Customer Services Division
NWCC2    Archives II Research Support Branch
NWCT     Textual Archives Services Division
NWCT1F   Archives I Forms Reference Section
NWCT1R   Archives I Reference Section
NWCS     Special Media Archives Services Division
OIG      Office of Inspector General
PIV      Personal Identify Verification




                                  Page 19
               National Archives and Records Administration
                                                 OIG Audit Report No. 10-14


Appendix E - Management’s Response to the Report




                               Page 20
            National Archives and Records Administration
                                                         OIG Audit Report No. 10-14


Appendix F - Report Distribution List

Archivist of the United States
Deputy Archivist of the United States
Assistant Archivist, Office of Records Services – Washington, DC (NW)
Assistant Archivist, Office of Administration (NA)
Chief of Staff
Management Control Liaison, Policy and Planning (NPOL)




                                       Page 21
                    National Archives and Records Administration
